     DEPARTMENT OF HEALTH AND HUMAN SERVICES                             Office of Inspector General


                                                                         Office of Audit Services, Region V
                                                                         233 North Michigan Avenue
                                                                         Suite 1360
                                                                         Chicago, IL 60601

February 15, 2012

Report Number: A-05-11-00097

Carolyn P. Hafner
Assistant Vice President, Internal Audit
Wayne State University
5700 Cass Avenue
Suite 3300 A/AB
Detroit, MI 48202

Dear Ms. Hafner:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Wayne State University Claimed Allowable Costs Under
Recovery Act Grant No. R01GM084248. We will forward a copy of this report to the HHS
action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-05-11-00097 in all correspondence.

                                                    Sincerely,



                                                    /Sheri L. Fulcher/
                                                    Regional Inspector General
                                                      for Audit Services


Enclosure
Page 2 – Ms. Carolyn P. Hafner


HHS Action Official:

Lorraine M. Trexler, Director
Division of Financial Advisory Services
OAMP, OALM, OD
National Institutes of Health
6011 Executive Blvd., Room 549C
Rockville, MD 20892-7663
Department of Health and Human Services 

            OFFICE OF 

       INSPECTOR GENERAL 





   WAYNE STATE UNIVERSITY 

  CLAIMED ALLOWABLE COSTS 

  UNDER RECOVERY ACT GRANT 

      NO. R01GM084248





                        Daniel R. Levinson

                         Inspector General 


                          February 2012 

                          A-05-11-00097 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                        INTRODUCTION 


BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009, provided $8.2 billion to the Office of Director of the National Institutes of
Health (NIH) to help stimulate the economy through the support and advancement of scientific
research. Of the $8.2 billion, the Recovery Act transferred $7.4 billion to the NIH Institutes and
Centers and to the Common Fund. In addition, the Recovery Act provided $400 million for
comparative effectiveness research.

Recovery Act funds were used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and occasionally individuals.

Federal Requirements for NIH Grantees

The regulations at 45 CFR Part 74 provide the uniform administrative requirements for awards
and subawards to institutions of higher education and other non-profit and commercial
organizations. Pursuant to 45 CFR §74.27, the allowability of costs incurred by institutions of
higher education are determined in accordance with the cost principles contained in 2 CFR pt.
220 (formerly Office of Management and Budget (OMB) Circular A-21), Cost Principles for
Educational Institutions.

NIH provides additional guidance through the National Institutes of Health Grants Policy
Statement (Grants Policy Statement). The Grants Policy Statement provides NIH grantees, in a
single document, the policy requirements that serve as the terms and conditions of NIH grant
awards. The Grants Policy Statement provides general information, application information, and
specifies the terms and conditions that apply to particular types of grants, grantees, and activities
that differ from, supplement, or elaborate on the standard terms and conditions.
Recovery Act Award to Wayne State University

Wayne State University (the grantee), founded in 1868, is a nationally recognized metropolitan
research institution located in Detroit, Michigan. NIH awarded the grantee a Recovery Act grant
in the amount of $434,811 for comparative effectiveness research. The grant budget period was
September 25, 2009, through August 31, 2011; as of June 30, 2011, the grantee had claimed
$324,372 ($228,041 direct costs and $96,331 indirect costs) under the NIH grant.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by the grantee were allowable under the
terms of the grant and applicable Federal regulations.



                                                  1

Scope

We did not perform an overall assessment of the grantee’s internal control structure. Rather, we
limited our evaluation of the grantee’s accounting system to (1) obtaining an understanding of
internal control as it relates to the specific objective and scope of the audit, and (2) reviewing the
grantee’s financial audits performed by an independent auditor.

We limited our review to costs the grantee claimed for NIH grant R01GM084248 during the
period September 25, 2009, through June 30, 2011. During the review period, the grantee
claimed $324,372. We reviewed $39,530 of the direct costs claimed by the grantee as of June
30, 2011.

We performed field work at the grantee’s administrative office in Detroit, Michigan in July 2011.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations, and other guidance;

       reviewed grant announcements, grant applications, and notices of grant award;

       interviewed grantee officials;

       reviewed the grantee’s independent auditor’s reports and management letters for fiscal
        years 2009 and 2010;

       identified expended funds in the grantee’s accounting records as of June 30, 2010;

       summarized costs by cost category from expenditure reports;

       verified mathematical accuracy of the expenditure report;

       compared budgeted and actual expenditures;

       reviewed selected costs claimed under the grants for allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusion based on our audit objective.




                                                  2

                                   RESULTS OF AUDIT


The $39,530 in grant costs covered by our review were allowable under the terms of the grant
and applicable Federal regulations.




                                               3

